Contrato de Plan de Cuentas Rotativas
-----------------------------------------------Santander Zero Card MasterCard®
Este documento y los términos y condiciones de su tarjeta de crédito, que se divulguen en oferta mediante carta de
oferta, teléfono, internet o cualquier otro medio constituyen su Contrato de Plan de Cuentas Rotativas con Banco
Santander Puerto Rico (en adelante el “Contrato”). El uso de la Tarjeta de Crédito (en adelante la “Tarjeta”) que emite el
Banco Santander Puerto Rico (en adelante el “Banco”) a solicitud de la persona a nombre de quien se emite la Tarjeta
(en adelante el “Tenedor”) se regirá por los siguientes términos, cláusulas y condiciones:
USO DE LA TARJETA: El Tenedor podrá usar la Tarjeta para comprar y/o arrendar mercancías y servicios en aquellos
establecimientos donde se acepte la Tarjeta y para obtener adelantos en efectivo del Banco o de cualquier otro banco
que acepte la Tarjeta, sujeto a aquellos límites que de tiempo en tiempo fije el Banco o el banco asociado al cual se
presente la Tarjeta. De igual forma el tenedor podrá realizar transferencias de balances sujetas a la disponibilidad de su
línea de crédito. Como una medida de prevención de fraude su tarjeta será bloqueada para uso fuera de Puerto Rico y
Estados Unidos. El cliente será responsable de notificar previamente al Banco llamando a Banco en Casa al 787-2812000 o 1-800-726-8263 cuando salga de viaje fuera de Puerto Rico. Esto proveerá mayor seguridad en sus
transacciones y le permitirá el uso de su tarjeta en el exterior, evitando que su Tarjeta sea bloqueada de forma
preventiva. El Tenedor adeudará al Banco la suma cargada a su cuenta por el uso de la Tarjeta, más cualquier Cargo
por Intereses que se determine, la cual será pagadera en moneda del Curso legal de los Estados Unidos de América, en
su totalidad o en plazos mensuales, en conformidad con las disposiciones expuestas en este Contrato.
LIMITE DE CREDITO: El límite de crédito inicial concedido por el Banco para la cuenta del Tenedor se le informará al
recibir la Tarjeta. También en cada estado mensual de cuenta aparecerá el límite de crédito vigente a la fecha del estado.
El Tenedor acuerda que el Banco podrá cambiar su límite de crédito de tiempo en tiempo a base de la evaluación de su
crédito. El Tenedor no podrá excederse del límite de crédito aprobado por el Banco y de así hacerlo el Banco tendrá el
derecho a cancelar la Tarjeta, requerir su devolución o incautarse de la misma, y cerrar la cuenta. Cualquier cantidad en
exceso del límite aprobado por el Banco será pagada por el Tenedor a la presentación.
CARGOS POR INTERESES: Los Cargos-por Intereses se computan únicamente sobre el balance del principal. El
Tenedor pagará un Cargo - por Intereses mensual sobre el balance de su cuenta durante el período de facturación,
como se describe a continuación, que nunca será más alto que el tipo establecido por la Ley y los reglamentos
correspondientes. El Cargo - por Intereses de la tarjeta Santander ZeroCard de MasterCard®, para mercancías y
servicios y adelantos de efectivo y transferencia de balance varía conforme a la puntuación de crédito del solicitante al
momento de la evaluación de crédito, la cual puede fluctuar desde 0.9125% hasta 2.1625% mensual (Tasa Periódica),
equivalente a una Tasa de Porcentaje Anual (APR) que va desde 10.95% hasta 25.95%. Si la tasa divulgada en la
oferta que le hiciera el Banco Santander Puerto Rico mediante carta de oferta, teléfono, internet o cualquier otro medio es
distinta a ésta, la Tasa Periódica se computa dividiendo la Tasa de Porcentaje Anual aplicable a su cuenta entre doce
(12). Se impondrá un Cargo - por Intereses sobre las compras cargadas a esta cuenta aplicando la Tasa Periódica
Mensual indicada al Balance Diario Promedio. Obtenemos este balance tomando el balance inicial de cada día del
período de facturación, restándole los pagos y créditos y sumándole las compras, excepto compras hechas en períodos
de facturación en que el balance inicial del período sea $0 ó ese balance inicial sea pagado por completo dentro del
período. Entonces sumamos todos los balances diarios dentro del período de facturación y dividimos este total entre el
número de días comprendidos dentro del período. El resultado es el Balance Diario Promedio. No se impondrá Cargo
por Intereses para períodos de facturación en que no exista un balance previo o durante el cual los pagos y créditos
igualen o excedan el balance anterior. Los Cargos -por Intereses respecto a adelantos de efectivo se impondrán
aplicando la Tasa Periódica Mensual indicada al Balance Diario Promedio desde la fecha en que el Tenedor y/o las
personas autorizadas por el Tenedor, reciban dichos adelantos hasta su total pago.
TASA DE INCUMPLIMIENTO O PENALIDAD: La Tasa de Porcentaje Anual (APR) (incluyendo tasas promocionales)
que aplica a los balances existentes así como a nuevas compras de mercancía y servicios, adelantos de efectivo y
balances transferidos a su cuenta puede aumentar a 28.99% APR si ocurre la siguiente condición:
· El pago mínimo de su cuenta no se recibe durante dos (2) períodos de facturación consecutivos.
Su cuenta será elegible para volver a la Tasa de Porcentaje Anual (APR) regular de su cuenta luego de que la cuenta se
ponga al día y se hayan realizado seis (6) pagos mínimos consecutivos en o antes de las fechas de vencimiento
correspondientes. El Banco notificará el aumento en tasa por incumplimiento con no menos de cuarenta y cinco (45) días
de antelación a la fecha de efectividad del aumento.
TASAS PROMOCIONALES: Si el Tenedor se acoge a una tasa promocional (Tasa de Porcentaje Anual APR, aplicable a
los balances existentes, a nuevas compras de mercancía y servicios y adelantos de efectivo cargados a su cuenta) la
misma estará vigente durante el término especificado en la oferta realizada por el Banco. No obstante, si el Tenedor
decide cancelar su cuenta antes que termine el período de la tasa promocional este último perderá los beneficios de la
tasa promocional y se le aplicará la tasa regular correspondiente a su cuenta, al balance existente a partir de la fecha de
cancelación de su Tarjeta.
CUOTA ANUAL: Favor referirse a la sección de “Cuota Anual” en la tabla incluida
ESTADO DE CUENTA MENSUAL: Mensualmente el Banco le enviará al Tenedor un Estado de Cuenta al finalizar cada
período de facturación el cual indicará, según aplique, las siguientes partidas: Balance Anterior, Pagos y Créditos,
Débitos, Compras de Mercancías y Servicios y Adelantos de Efectivo y Transferencia de Balance durante el período en
cuestión, el Cargo por Intereses , la Tasa de Porcentaje, expresada mensual y anualmente, la fecha de cierre del
período de facturación, el Balance Diario Promedio, el Total del Balance Nuevo, el pago mínimo, la fecha en que vencerá
dicho pago, Aviso sobre Pago Tardío, Aviso sobre el Pago Mínimo, Referencia sobre consejería de Crédito y Secciones
de Cargos e Intereses Cobrados durante el año, entre otras partidas. El Tenedor deberá notificar por escrito al Banco
cualquier error en el Estado de Cuenta Mensual dentro de los sesenta (60) días siguientes a la fecha en que el Estado de
Cuenta le es enviado.
OTROS CARGOS: Cargo por Cheque Devuelto - Se añadirá un cargo de $10 al balance existente en compras por
cada pago realizado a su tarjeta de crédito con cheque devuelto por las siguientes razones: fondos no disponibles o
cobrados, fondos insuficientes o cualquier otra razón por la cual el cheque no pueda ser procesado. Cargo por Mora se añadirá una cantidad igual al pago mínimo hasta un máximo de $38 al balance existente en compras por cada período
de facturación en que no sea efectuado el pago mínimo a la fecha de vencimiento. Cargo por adelanto de efectivo –
No conllevará cargo por adelanto de efectivo la tarjeta Santander ZeroCard de MasterCard® y tarjetas que el Banco
tenga en promoción de tiempo en tiempo.
CUENTAS CONJUNTAS: Titulares de cuentas conjuntas serán solidariamente responsables por el total de las compras
y adelantos de efectivo realizados bajo el plan de crédito. El Banco podrá requerir la comparecencia y firma de ambos
para procesar ciertas instrucciones o solicitudes que incluyen, pero no se limitan a (1) solicitud de aumento o reducción
de la línea de crédito, (2) emisión de tarjetas adicionales, y (3) cambio en la dirección a la cual se envía el estado de
cuenta del plan de crédito. Ambos acuerdan liberar e indemnizar al Banco de toda responsabilidad por daños, pérdidas o

gastos que surjan como resultado de cualquier acción que realice el Banco en cumplimiento con las instrucciones dadas
por cualquiera de los titulares.
INCUMPLIMIENTO: En caso de insolvencia, quiebra, o muerte del Tenedor, o si dejase de cumplir cualquier obligación
con el Banco bajo este Contrato, la deuda total del Tenedor al Banco quedará, a opción del Banco, inmediatamente
vencida y será pagadera de acuerdo a las disposiciones pertinentes de Ley y de los reglamentos vigentes. Si dicho
incumplimiento surgiere por razón de no cumplir con los pagos requeridos por las disposiciones de este Contrato,
cualquier deuda vencerá bajo cualquiera de las siguientes condiciones:
• Si el deudor faltase en el pago de tres plazos consecutivos.
• Si el deudor faltase en el pago de uno o más plazos y en dos o más ocasiones había dejado de pagar dos o más plazos
consecutivos.
• Si el deudor efectúa un pago parcial de un plazo vencido e hiciese tres pagos consecutivos posteriormente pero sigue
sin pagar el remanente del pago parcial adeudado.
PAGO MINIMO: El Tenedor podrá pagar el Total del Nuevo Balance en su totalidad o en plazos mensuales. De efectuar
el pago en plazos mensuales, el Pago Mínimo será:
Si el balance adeudado es:
$ .01 a $ 9.99
$ 10.00 a $600.00
$600.01 en adelante

Pago Mínimo será:
El balance nuevo o los intereses acumulados al
cierre del ciclo de facturación, lo que sea mayor.
$10.00 o los intereses acumulados al cierre del
ciclo de facturación, lo que sea mayor.
1/60 o los intereses acumulados al cierre del
ciclo de facturación, lo que sea mayor.

Además, su pago mínimo incluirá la cantidad total del exceso sobre el límite de crédito autorizado. El Tenedor podrá
pagar en cualquier momento el Total del Nuevo Balance o cualquier parte de éste que sea mayor que el Pago Mínimo
Mensual requerido.
APLICACIÓN DE PAGOS: Si el Tenedor pagara el Pago Mínimo requerido en el Estado de Cuenta Mensual, dicho pago
será aplicado en la siguiente forma: primero a los Cargos por Intereses, y el remanente se aplicará proporcionalmente a
lo adeudado por concepto de mercancías y servicios y adelantos en efectivo, conforme al Balance Nuevo que cada una
de dichas partidas arroje a la fecha de facturación del estado de cuenta mensual. Si el Tenedor pagara una cantidad en
exceso del Pago Mínimo requerido, podrá declarar por escrito al momento de hacer el pago, que se aplique el exceso a
los adelantos en efectivo y mercancías y servicios, o se distribuya proporcionalmente. En la ausencia de tal declaración,
se aplicará el exceso a la deuda con la tasa de Interés más alta.
APLICACIÓN DE PAGOS EL MISMO DIA: El Banco acreditará el pago que realice el Tenedor el mismo día cuando éste
se efectúe: (a) en efectivo o en cheque a través de una de las sucursales del Banco, antes de la hora de cierre de lunes a
viernes; (b) electrónicamente antes de las 5:00 p.m. de lunes a viernes; (c) a través del correo junto al talonario de pago
a la dirección que aparece en el Estado de Cuenta del Tenedor Si el Banco recibe el pago en fin de semana o día
feriado, el pago será acreditado a la cuenta el siguiente día laborable. En caso de pagos recibidos en cheque el Banco
aplazará la disponibilidad de los fondos equivalentes al importe del pago, por un periodo de hasta cinco (5) días hábiles.
Esto no conllevará cargos adicionales a su cuenta por concepto de Cargos por Intereses.
DENEGACIÓN DE LA TARJETA: El Banco no será responsable si una compra o adelanto de efectivo no es autorizado
por el Banco o un tercero, aún en el caso de que el Tenedor tenga crédito disponible. El Banco puede limitar el número
de compras o adelantos de efectivo aprobados durante un día. Si el Banco detecta actividad poco usual o sospechosa en
la cuenta, podrá suspender temporalmente el crédito hasta que se verifique la legitimidad de la transacción. El Banco
podría suspender temporalmente el crédito, si el Tenedor tiene alguna deuda existente con el Banco que se encuentre en
atrasos. El Banco podría aprobar compras o adelantos de efectivo que excedan el límite de crédito sin renunciar a sus
derechos bajo este Acuerdo. El Tenedor reconoce y acepta que el Banco no tendrá responsabilidad ni obligación alguna
por las comunicaciones, actos u omisiones de los establecimientos incluyendo su negativa a aceptar la Tarjeta, así como
por los defectos, calidad, peso, cantidad o cualquier otro aspecto relativo a la entrega o prestación de los bienes y/o
servicios que se adquieran u obtengan mediante el uso de la Tarjeta.
TARJETA EXTRAVIADA O HURTADA: Si la tarjeta se extraviara o fuera hurtada o el Tenedor sospechara que alguien
pudiera utilizarla sin su autorización, el Tenedor deberá notificar inmediatamente al Banco llamando por teléfono al (787)
281- 2000 o al 1-800-726-8263, este servicio está disponible 24 horas, 7 días a la semana, para completar y someter
aquellos formularios o informes que el Banco le requiera. El Tenedor no será responsable por transacciones fraudulentas
que ocurran en caso de pérdida, robo o uso no autorizado.
ENMIENDAS: Según requerido por ley, este Contrato incluye las divulgaciones en términos y condiciones de su tarjeta
de crédito. El Banco no puede garantizar que los términos y condiciones de su tarjeta de crédito queden inalterados.
Los mismos pueden cambiar de conformidad a las leyes y reglamentos aplicables, también pueden ocurrir cambios
basados en su historial de crédito, condiciones de mercado, estrategias de negocios y por cualquier otra razón. De
ocurrir algún cambio los mismos serán notificados de conformidad con las leyes y reglamentos aplicables. De estos
cambios no estar contemplados en alguna ley o reglamento, los mismos serán notificados 10 días previos al cambio. Los
Cargos por Intereses, las tasas Periódicas y los demás términos y condiciones contenidos en el presente Contrato
podrán ser enmendados por el Banco luego de haber transcurrido 12 meses de la apertura de la cuenta. Cualquier
enmienda con relación a los Cargos por Intereses será aplicable a las nuevas compras de mercancías y servicios y
adelantos en efectivo que se originen a partir de la fecha de vigencia del cambio, según permitido por las leyes y
reglamentos aplicables. Si el Tenedor no estuviera de acuerdo con las enmiendas notificadas y deseara dar por
terminado el Contrato, deberá notificar por escrito al Banco de su decisión y devolver la tarjeta partida en dos antes de la
fecha de efectividad de la modificación notificada y seguirá pagando los balances adeudados bajo la cuenta, conforme a
los términos y condiciones anteriormente vigentes. Cualquier cambio en las tasas de Cargos por Intereses que ocurra
en o antes de la fecha en que se aprueba el crédito solicitado se notificará mediante aviso acompañado con la tarjeta al
Tenedor, quien, mediante el uso de la Tarjeta confirma su aceptación del cambio.
CANCELACIÓN: La Tarjeta es propiedad del Banco y éste podrá cancelarla en cualquier momento sin previo aviso al
Tenedor, quien se obliga a devolver a solicitud del Banco, cualquier Tarjeta emitida. Si usted no está de acuerdo con los
términos de este Contrato, puede cancelarlo en cualquier momento mediante notificación escrita al Banco sobre esos
efectos, y la devolución de su Tarjeta partida en dos. Usted continuará siendo responsable por el pago de cualquier
balance adeudado al momento de la cancelación. Si al momento de la cancelación usted tiene algún balance adeudado
en oferta, al mismo le aplicará la tasa regular vigente a la fecha de terminación.
Usted puede usar la Cuenta solamente con propósitos personales, familiares o del hogar. Usted no puede usar la Cuenta
con propósitos ilegales ni para juegos de azar por Internet (ni siquiera legalmente). Sin embargo, siempre será
responsable de cualquier transacción que realice, aunque esté en violación de la ley o de este Contrato. Deberá tomar
medidas razonables para evitar el uso no autorizado de su Cuenta. Nosotros podemos convertir su cuenta en cualquiera
de nuestras otras cuentas rotativas para la que usted reúna los criterios de crédito.

DISPOSICIONES MISCELANEAS: El Banco queda autorizado por el Tenedor a investigar las referencias de crédito del
Tenedor y se reserva el derecho de expedir o no expedir, renovar o no renovar la tarjeta dependiendo de la habilidad de
pago y de las referencias de crédito del Tenedor. La omisión por parte del Banco de ejercitar cualquier derecho bajo este
Contrato no constituirá una renuncia a dicho derecho. Si alguna cláusula de este Contrato fuese declarada nula por un
Tribunal o dejase de tener efecto por disposición legal o reglamentaria, las restantes disposiciones de este Contrato
continuarán vigentes. El Tenedor establecerá un Número Secreto para poder tener acceso a adelantos de efectivo contra
su cuenta a través de Cajeros Automáticos. El Tenedor se obliga y compromete a mantener la confidencialidad de dicho
Número Secreto para así evitar el uso de la Tarjeta por parte de personas no autorizadas y se compromete a no divulgar
o llevar el Número Secreto escrito junto a la Tarjeta. El límite de los adelantos de efectivo será el que de tiempo en
tiempo fije el Banco. Cuando la Tarjeta fuere utilizada fuera de Puerto Rico o en otro banco asociado regirá el límite
establecido por el banco asociado al cual se presente la Tarjeta. El Tenedor podrá instruir al Banco a debitar de cuentas
depositadas en el Banco cualquier cantidad para cubrir pagos adeudados o el balance total de la deuda. El Banco, a
opción de éste, podrá no autorizar adelantos en efectivo y/o compra de mercancías y servicios cuando la cuenta se
encuentre en atrasos de treinta días o más y/o cuando el balance adeudado se encuentre sobre el límite de crédito
concedido.
El Tenedor no está obligado a aceptar la Tarjeta ni será responsable de cargo alguno a menos que elija aceptarla
mediante el uso. Del Tenedor no aceptar la Tarjeta deberá notificar al Banco dentro de los quince (15) días luego de
haber recibido este contrato sin haberla utilizado. El uso de la Tarjeta por el Tenedor o por cualquier persona autorizada
por éste constituye una aceptación por parte del Tenedor de todos y cada uno de los términos, cláusulas y condiciones
divulgados bajo este Contrato. Este Contrato se regirá e interpretará bajo las leyes y reglamentos del Estado Libre
Asociado de Puerto Rico y las leyes y reglamentos federales aplicables. En caso de que se le ofreciere algún seguro de
protección de vida, incapacidad o desempleo involuntario o alguna otra cubierta por el Banco o algún tercero (sea o no
afiliado del Banco) dicho seguro es opcional y no es una condición para extender el crédito.
DERECHOS DE FACTURACIÓN: Este aviso contiene información importante respecto a sus derechos y nuestras
responsabilidades bajo el Fair Credit Billing Act. Notificación al Banco en caso de errores o dudas sobre el Estado
de Cuenta: El Tenedor deberá notificar por escrito al Banco si cree que el Estado de Cuenta está incorrecto o necesita
más información acerca de una transacción en el Estado. El Tenedor deberá escribir, en hoja separada, a la dirección
que indica el Estado de Cuenta, tan pronto sea posible. Este aviso debe hacerse no más tarde de sesenta (60) días
desde que el Banco envió el primer Estado en el cual apareció el error o problema. El Tenedor puede llamar al Banco
por teléfono, pero de esta forma su derecho no prevalece. El Tenedor debe enviar una carta con la siguiente información:
nombre y apellidos, número de cuenta, la cantidad del alegado error, descripción del error. De necesitar más
información, debe incluir una descripción de la partida sobre la cual tiene dudas. Si el Tenedor ha autorizado al Banco a
pagar el estado de cuenta automáticamente de su cuenta de ahorros o cheque, el Tenedor puede detener el pago en
cualquier cantidad que entienda que esta incorrecta.
DERECHOS Y RESPONSABILIDADES DEL BANCO LUEGO DE HABER RECIBIDO LA NOTIFICACIÓN POR
ESCRITO DEL TENEDOR: El Banco debe acusar recibo de la carta dentro de treinta (30) días, a menos que hayamos
corregido el error dentro de este término. Luego de haber recibido su carta, dentro de un período equivalente a dos ciclos
de facturación, pero no mayor de noventa (90) días, el Banco debe corregir el error o explicarle porque entendemos que
la factura está correcta. Después de haber recibido la notificación por escrito, el Banco no debe tratar de cobrar cualquier
cantidad que el Tenedor cuestione, o reportarlo como moroso. El Banco puede continuar facturando la cantidad que el
Tenedor cuestione, incluyendo Cargos por Intereses y podrá aplicar cualquier cantidad adeudada a su línea de crédito.
El Tenedor no tiene que pagar cualquier cantidad en disputa mientras el Banco esté investigando, pero el Tenedor estará
obligado a pagar las partes de la factura que no estén en disputa. Si el Banco determina que hubo un error en la factura,
el Tenedor no tendrá que pagar Cargos por Intereses relacionados con la porción de la factura que esté en disputa. Si se
determina que no hubo error en la factura, el Tenedor deberá pagar Cargos por Intereses y poner al día cualquier pago
con la cantidad en disputa. En cualquier caso, el Banco le enviará un Estado de Cuenta por la cantidad adeudada y la
fecha de vencimiento. Si el Tenedor no pagara la cantidad que el Banco cree éste adeuda, el Banco podrá reportar el
caso como moroso. Sin embargo, si la explicación del Banco no satisface al Tenedor y éste escribe dentro de los
próximos diez (10) días informando que aún rehúsa hacer el pago, el Banco deberá informar a cualquier organización a
quien se le haya reportado como moroso el que el Tenedor tiene una disputa sobre la factura. Además el Banco deberá
informarle al Tenedor sobre la identidad de cualquier organización a que se le haya reportado al Tenedor que ha habido
una resolución una vez el asunto se haya resuelto. De no seguir estas reglas, el Banco no podrá cobrar los primeros $50
de la cantidad en disputa, aún si se determina que la factura estaba correcta.
REGLAS ESPECIALES SOBRE COMPRAS CON TARJETAS DE CRÉDITO: De tener problemas con la calidad de los
productos o servicios comprados con tarjetas de crédito, y usted ha tratado de buena fe de corregir el problema con el
vendedor, usted pudiera tener el derecho de no pagar por el remanente de la deuda relacionada con esos productos o
servicios. Hay dos limitaciones a este derecho: a) usted debe hacer la compra en su estado de residencia (“home state”),
o si no se encuentra en su estado de residencia, dentro de 100 millas de su dirección postal, y b) el precio de compra
debe ser mayor de $50. Estas limitaciones no aplican al comercio donde el cliente adquirió la mercancía o servicios, si
éste es propiedad o está controlado por el Banco o si el Banco le envió un anuncio o propaganda de la mercancía o
servicios.
Banco Santander Puerto Rico- División Tarjetas Bancarias- PO BOX 362589 SAN JUAN, PR 00936-2589
(REV 03/18)

Tasas de Interés y Cargos de Intereses
Tasa de porcentaje anual
(APR) en compras
Tasa de porcentaje anual
(APR) en Transferencia de
Balances
Tasa de porcentaje anual
(APR) en Adelantos de
Efectivo

10.95% a 25.95%, al momento de apertura de la cuenta,
basado en su historial de crédito.

10.95% a 25.95%, al momento de apertura de la cuenta, basado en su
historial de crédito.
22.95% a 25.95%, al momento de apertura de la cuenta, basado en su
historial de crédito.

28.99% APR
Aplica a los balances de la cuenta, incluyendo nuevas compras, adelantos
de efectivo y balances transferidos si se produce la siguiente condición:
APR de Penalidad o
Incumplimiento y Cuándo
Aplica

Pago de Intereses

Para consejos de crédito
del Consumer Financial
Protection Bureau

a. El pago mínimo no se recibe durante 2 períodos de facturación
consecutivos.
¿Por cuánto tiempo aplica la tasa de penalidad o incumplimiento?
Si su APR incrementa por esta razón la tasa por incumplimiento aplicará
hasta que haya realizado, por lo menos, seis (6) pagos mínimos
consecutivos en o antes de su fecha de vencimiento.
Su fecha de pago será de por lo menos 27 a 32 días luego del cierre de cada
ciclo de facturación. No cobraremos intereses desde la fecha que compre
bienes o servicios, si usted paga el balance total adeudado de su cuenta en
o antes de la Fecha de Vencimiento. Si no paga el balance total adeudado,
pero se encuentra en período de gracia, no pagará intereses sobre el monto
pagado en ese ciclo de facturación. En los ciclos posteriores usted no tendrá
período de gracia hasta que pague el balance total adeudado en su cuenta.
Los balances relacionados a ciertas ofertas no se toman en cuenta para
determinar si califica para el período de gracia, para los cuales debe
referirse a los términos y condiciones de la oferta. Los intereses respecto a
adelantos de efectivo, transferencias de balance de otras instituciones y
cheques de conveniencia se impondrán desde la fecha en que se realice la
transacción y seguirán acumulándose hasta el saldo total de estos
balances.
Para información sobre factores a considerar al solicitar o usar tarjetas
de crédito, visite a la Consumer Financial Protection Bureau en su sitio
de Internet: http://www.consumerfinance.gov/learnmore

Cargos
Cuota Anual

$0

Cuota Anual Tarjeta Adicional

$0

Cargo por Transacciones
Adelantos de Efectivo y/o
Transferencias de Balance

$0

Conversión de Monedas

0%

Cargos por Penalidad
Cargo por mora
Cargo por cheque devuelto

Hasta un máximo de $38
$10

¿Cómo calcularemos su balance?: Utilizamos el método de balance Diario Promedio
(incluyendo compras nuevas).
Pérdida de APR Introductorio: Podemos terminar tu APR de introducción y aplicar el APR de
Compras si cierra su cuenta o hace un pago tardío.
Derechos de Facturación: La información sobre sus derechos a disputar transacciones y como
ejercer esos derechos se proporciona en su contrato de cuenta de tarjeta de crédito.
Banco Santander Puerto Rico es miembro FDIC. Lic. OCIF IB-17

